DOE F 7325.8
(08-93)
United States Government                                                              Department of Energy


Memorandum
          DATE:   October 30,2008                                      Audit Report Nuniber: OAS-L-09-01
    REPLY TO
    AITN OF:      IG-30 (A08GT053)
     SUBJECT:     Audit Report on "Review of the Department of Energy's Contract with AHTNA Government
                  Services Corporation Contract No: DE-AC52-04NA25282"
           TO:    Director, Office of Field Financial Management, NNSA

                  INTRODUCTION AND OBJECTIVE

                  The National Nuclear Security Administration (NNSA) awarded a general construction
                  contract to AHTNA Government Services Corporation (AHTNA), an Alaskan Native
                  Corporation (ANC), in September 2004. The contract was awarded under the Small
                  Business Administration (SBA) Section 8(a) small disadvantaged business program to
                  provide design, construction, and engineering services for radiation sensors and
                  communication equipment in support of the Department of Energy's (Department)
                  Second Line of Defense program.

                  In April, 2006, the Government Accountability Office (GAO) issued an audit report on
                  Increased Use ofAlaska Native Corporations' Special 8(a) Provisions Callsfor Tailored
                  Oversight (GAO-06-399) related to the lack of oversight for ANC contracts. The GAO
                  report found, among other things, that the Federal agencies subject to their review
                  needed to improve their controls over monitoring subcontractor limitations and reporting
                  contract modifications or awards to the. SBA. In conjunction with a review conducted
                  by the SBA Office of Inspector General (OIG), we conducted this review to determine
                  whether the AHTNA contract was managed in accordance with the SBA 8(a) program.

                  CONCLUSION AND OBSERVATIONS

                  For the most part, we found that the AHTNA contract was managed in ac,cordancewith
                  SBA 8(a) program requirements. However, we noted certain issues that, if corrected,
                  could enhance NNSA's management of ANC contracts. In the case of AHTNA, we
                  found that NNSA had not properly monitored compliance with subcontracting
                  limitations and,did not always submit contractual documents to the SBA.

                  Our review found t h ~NNSA
                                         t     did not adhere to requirements designed to ensure that the
                  contractor performed the required amount of work on the contract. Specifically, NNSA
                  did not have a formal documented process for monitoring the percentage of work
                  performed by AHTNA and reporting the results to the SBA.
The Code of Federal Regulations (CFR) requires that general construction contracts
under the SBA 8a program be monitored semiannually to ensure that at least 15 percent
of the cost of the contract is performed by the contractor's own employees (not
including the cost of materials). The Contracting Officer indicated that periodic
informal checks were conducted to estimate the percentage of work being performed
and that AHTNA was performing 27 percent of the work as of February 2008.
However, documentation we were provided indicated that only one estimate had been
prepared since the contract was awarded in September 2004. We also determined that
the method used by the Contracting Officer to calculate the percentage of work being
performed by AHTNA was not in accordance with the CFR.

Using data obtained from AHTNA invoices, we determined that AHTNA performed
approximately 17 percent of the cost of the contract as of February 2008. During the
first 18 months of contract performance, AHTNA performed less than the required 15
percent of work. While it is not uncommon for small businesses to perform somewhat
less than the required 15 percent during the initial stages of the work, it is important for
the Department to use an accurate process for determining the percentage of work
performed by the ANC to ensure that it is satisfying program goals.

We also found that NNSA was not providing the SBA with all contractual documents
required by the CFR and the Partnership Agreement between the Department and the
SBA. The Partnership Agreement delegates SBA's contract execution functions to the
Department, permitting expedited 8(a) contract awards. According to the Partnership
Agreement, the Department is required to provide copies of any contract, orders,
modifications, and purchase orders to the SBA servicing district office. However, we
found that only one of the 34 modifications to this contract was provided to the SBA.
Providing this information to the SBA is important because they are the prime contractor
on all 8(a) contracts and they retain the ultimate responsibility for ensuring that
companies comply with all applicable program regulations. Consequently, the SBA can
suspend or rescind the Department's authority under the Partnershp Agreement for
failure to submit the required contractual documents or adequately monitor compliance
with 8(a) contract requirements.

We discussed the results of our review with the SBA OIG on April 24,2008. We also
provided the SBA OIG with answers to a number of questions they had about
subcontracting limitation compliance, monitoring and reporting. The SBA OIG informed
us that our results were consistent with what they had found at other Federal agencies and
that in their view, lack of sufficient monitoring, reporting and oversight could result in
increased performance and cost risk to the government.

SUGGESTED ACTIONS

To address the issues outlined above, we suggest that the Director, Office of Field
Finance Management, NNSA develop guidance requiring contracting officers to comply
with SBA 8(a) program requirements, including:
         Routine and accurate monitoring of subcontracting limitations in accordance
         with Code of Federal Regulations requirements;

         Submission of all required documents to the SBA, including all contract
         modifications; and,

         Adherence to all provisions in the Partnership Agreement between the
         Department and the SBA.

No recommendations are being made in this report; therefore, a formal response is not
required. We appreciate the cooperation of the various Departmental elements and the
staff at the NNSA Service Center during this effort.




                                    ~ i c k e iHass
                                                ~.
                                    Deputy Inspector General
                                       for Audit Services
                                    Office of Inspector General
Attachment

cc: Director, Ofice of Procurement and Assistance Management, MA-60
    Director, Policy and Internal Controls Management, NA-66
    Team Leader, Audit Liaison, CF-1.2
    Audit Liaison, MA 1.1
                                                                               Attachment

SCOPE AND METHODOLOGY

This review was performed between January 2008 and October 2008 at the National
Nuclear Security Administration (NNSA) Service Center, Albuquerque, NM and
AHTNA Government Services Corporation (AHTNA), Sacramento, CA. To accomplish
our objective, we:

       Reviewed applicable laws and regulations pertaining to the execution of contracts
       awarded to small businesses;

       Reviewed prior reports issued by the Small Business Administration (SBA)
       Office of Inspector General (OIG) and the Government Accountability Office;

       Interviewed NNSA contracting personnel and AHTNA employees to gain an
       understanding of roles, responsibilities and procedures for ensuring compliance
       with applicable laws and regulations;

       Obtained a listing of all contracts between AHTNA and its subcontractors;

       Used the U.S. Army Audit Agency Statistical Sampling Software to randomly
       select a sample of contracts to review at AHTNA using the following parameters:
       confidence level - 90 percent, precision rate - 6.0, error rate - 7 percent;

       Judgrnentally selected three additional contracts at AHTNA to review;

       Analyzed contract invoices and documentation obtained from the NNSA Service
       Center and AHTNA for Fiscal Years 2004 through 2008;

       Provided the SBA OIG with certain details about the Department of Energy's
       compliance with SRA requirements and management of this contract to assist
       them in their review; and,

       Calculated the percentage of work being performed by AHTNA with its own
       employees.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We believe that the evidence obtained
provides a reasonable basis for our findings and conclusions based on our audit
objectives. Because our review was limited, it would not necessarily have disclosed all
internal deficiencies that may have existed at the time of our audit. We also assessed
performance measures in accordance with the Government Performance and Results Act
of 1993 and found that performance measures were developed to address contracts
awarded to small business concerns. We did not rely on computer processed data to
satisfy our audit objectives. A draft of this report was provided to NNSA representatives
on October 9,2008. These officials agreed with the report.
